July 24, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

SUBJECT:          Audit Report – Postal Service Continuity of Operations for the Pacific Area
                  (Report Number SA-AR-08-010)

This report presents the results of our audit of Postal Service Continuity of Operations
(COOP) for the Pacific Area (Project Number 08YG013SA001). Our objective was to
determine whether the Postal Service has a viable COOP capability to ensure the
performance of its essential functions during any emergency that may disrupt normal
operations. We conducted this self-initiated audit because emergency preparedness
(EP) is a critical area for the Postal Service. Click here to go to Appendix A for
additional information about this audit.

Conclusion

We determined management in the Pacific Area could enhance their COOP capability
to ensure they can effectively and efficiently continue essential functions during
emergencies that may disrupt normal operations. Based on our audit and the Postal
Service’s response to prior emergencies,1 we believe they have the capability to
continue mail operations in an emergency. However, the Postal Service has not
implemented sufficient internal controls, and as a result, responsible officials are not
fully prepared to effectively and efficiently continue essential functions during
emergencies that require COOP activation. This could expose employees, mail, critical
assets, and revenue to increased risk. Click here to go to Appendix B for our detailed
analysis of this topic.

Completion of Continuity of Operations Plans

We reviewed a sample of COOP plans2 for the Pacific Area and determined that
responsible area officials did not always establish and maintain area, district, and facility
COOP plans according to federal and Postal Service guidance. In addition, personnel
with COOP-related responsibilities did not always update and maintain COOP plans in


1
  For example, during the California wildfires in October 2007, the Pacific Area continued to move the mail under very
difficult circumstances.
2
  The audit team requested COOP plans from 21 sites and received 18 COOP plans for review: one area plan, six
district plans, and 11 facility plans. Three facilities did not have a COOP plan.
Postal Service Continuity of Operations                                                            SA-AR-08-010
 for the Pacific Area


the Postal Alert Notification System (PANS) to facilitate EP and response activities. For
example:

    •   COOP plans were not always completed or updated annually, as required.

    •   The COOP plans we reviewed did not contain all pertinent information, such as
        essential functions, staffing needs, offload plans, and current contact information.

This occurred because Postal Service management did not establish sufficient internal
controls and requirements to ensure COOP plans addressed federal and Postal Service
guidance. Specifically, management did not ensure responsible personnel updated the
contact information of key COOP personnel annually or as needed, and did not
establish:

    •   Requirements for mandatory training for COOP personnel, including PANS
        training, to ensure COOP plans were properly completed and maintained.

    •   An internal review and approval process to ensure COOP plans were properly
        completed, updated annually, and maintained in PANS, as required.

    •   Guidance to identify and prioritize essential functions.

    •   An emergency management coordinating committee (EMCC)3 at the area level to
        provide oversight to districts and facilities, as required.

We recommend the Vice President, Pacific Area Operations, in consultation with the
Chief Postal Inspector:

    1. Establish a formal review process to ensure continuity of operations plans are
       completed, updated annually, and maintained in the Postal Alert Notification
       System, as required.

Management’s Comments

Management agreed with our recommendation and stated they are establishing a
formal review process to ensure COOP plans are completed, updated annually, and
maintained in PANS. In addition, in supplemental correspondence management stated
they have developed objectives, goals, and performance measures to ensure the
completeness of Integrated Emergency Management Plans (IEMP) at districts and
installations. National Preparedness templates will be issued June 2009.
Management’s comments, in its entirety, are included in Appendix E.

Evaluation of Management’s Comments

3
 The Postal Service Administrative Support Manual (ASM), September 27, 2007, requires an EMCC to be
established in each area to assist inspectors in charge and district managers in developing emergency plans.



                                                         2
Postal Service Continuity of Operations                                                           SA-AR-08-010
 for the Pacific Area


Management’s comments are responsive to the recommendation, and the corrective
actions should resolve the issue identified in the finding.


We recommend the Vice President, Pacific Area Operations, in consultation with the
Chief Postal Inspector:

    2. Establish an area emergency management coordinating committee to provide
       oversight and assistance to district and facility Emergency Management Teams
       in establishing, implementing, and reviewing emergency management plans.

Management’s Comments

Management agreed that an area EMCC should be installed. Management stated that
an EMCC has been established since October 2007 and continues to provide oversight
and assistance to district and facility Emergency Management Teams to establish,
implement, and review emergency management plans as necessary.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation, and the corrective
actions taken should resolve the issue identified in the finding. However, during our
field work in April 2008, and in subsequent information provided by management,
Pacific Area officials stated an EMCC was currently being established and the first
meeting was scheduled for May 7, 2008.

In our audit report, Postal Service Continuity of Operations for the Great Lakes Area
(Report Number SA-AR-08-009, dated July 23, 2008), we recommended the Chief
Postal Inspector establish requirements for personnel responsible for COOP to:

    •   Update contact information for key continuity of operations personnel at least
        semiannually, or more often as changes occur.4

    •   Complete COOP training, including Postal Alert and Notification System training.

    •   Identify and prioritize essential functions

Management agreed with our recommendations, and stated they are currently
developing a Continuity Management Instruction (MI) that will translate the new federal
requirements into Postal Service policy that will be implemented at all levels within the
agency. In addition, management is developing a continuity handbook and emergency
plan templates for installations based on the policy requirements detailed in the MI.
Management stated they will complete the MI, handbook, and emergency plan
templates for operations facilities by December 31, 2008. They further stated the

4
  Although the Postal Service requires contact information to be updated annually, we recommend that the Postal
Inspection Service update this information at least semiannually because frequent changes could occur.



                                                         3
Postal Service Continuity of Operations                                        SA-AR-08-010
 for the Pacific Area


templates for non-operational facilities will be completed by June 2009. Management’s
comments were responsive to the recommendations, and the corrective actions should
resolve the issues identified in the findings. Therefore, we are not providing any
additional recommendations to the Chief Postal Inspector regarding completion of
continuity of operations plans in this report.

Alternate Facilities

Identification

Responsible Pacific Area personnel did not always identify appropriate alternate
facilities to ensure they could effectively continue operations. This occurred because
management did not establish specific guidance for identifying alternate facilities, such
as the number of alternate facilities that should be identified, and criteria for location,
mail volume, and mail capacity.

In our audit report, Postal Service Continuity of Operations for the Great Lakes Area, we
recommended the Chief Postal Inspector establish specific guidance for identifying and
selecting alternate facilities. This guidance should include, at a minimum, the number of
alternate facilities that should be identified and criteria for location, mail volume, and
mail capacity.

Management agreed with the recommendation, and stated the new Continuity MI and
handbook will establish guidance for identifying alternate facilities, including criteria
regarding location, function, mail volume, and mail capacity. The MI and handbook will
be issued by December 31, 2008. Management’s comments were responsive to the
recommendation, and the corrective actions should resolve the issue identified in the
finding. Therefore, we are not providing any additional recommendations to the Chief
Postal Inspector regarding identifying and selecting alternate facilities in this report.

Testing and Exercise

Responsible Pacific Area personnel did not always conduct testing and exercises to
ensure alternate facilities could effectively receive and process the primary facilities’
mail. This occurred because management did not establish sufficient requirements for
personnel responsible for COOP at primary and alternate facilities to conduct tests and
exercises to ensure alternate facilities could effectively process the primary facilities’
mail.

In our audit report, Postal Service Continuity of Operations for the Great Lakes Area, we
recommended the Chief Postal Inspector require personnel responsible for continuity of
operations at primary and alternate facilities to conduct tests and exercises to ensure
alternate facilities can effectively process the primary facilities’ mail.

Management partially agreed with the recommendation, and stated they will tailor each
facility’s continuity plan to measure offload capability to the extent feasible. They stated



                                             4
Postal Service Continuity of Operations                                        SA-AR-08-010
 for the Pacific Area


they would not undertake full-scale exercises to test an alternate facility’s capability to
handle offload mail volume due to negative effects on service. They will issue the test,
training, and exercise program by June 2009. Management’s comments were
responsive to the recommendation, and the corrective actions should resolve the issue
identified in the finding. We are not providing any additional recommendations to the
Chief Postal Inspector regarding testing and exercise in this report.

The OIG considers both of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests documentation of the
formal review process addressing continuity of operations plans and EMCC activities.
The documentation will serve as written confirmation that corrective actions have been
completed. The recommendations should not be closed in the follow-up tracking system
until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




for Darrell E Benjamin, Jr.
Deputy Assistant Inspector General
  for Support Operations

Attachment

cc: Pat A. Mendonca
    Zane M. Hill
    Drew T. Aliperto
    John F. Bolger
    Katherine S. Banks




                                             5
Postal Service Continuity of Operations                                           SA-AR-08-010
 for the Pacific Area




                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service, an independent establishment of the executive branch of the
U.S. government, operates like a business and generated $74.8 billion in revenue in
fiscal year (FY) 2007.5 The Postal Service is responsible for developing plans for
actions necessary to maintain itself as a viable part of the federal government during
emergencies.

The Postal Inspection Service is responsible for protecting the mail, Postal Service
assets, and customers. As the emergency coordinator for the Postal Service, the Chief
Postal Inspector is responsible for coordinating emergency planning and civil
preparedness programs and providing training and guidance to responsible EP
personnel.

Consolidation of Postal Service Responsibilities for Homeland Security. In March 2007,
all homeland security responsibilities were consolidated under the Postal Inspection
Service. These responsibilities included EP and aviation security. These groups
realigned to form the Office of National Preparedness (ONP) within the Postal
Inspection Service. ONP’s key responsibilities include incident management,
infrastructure protection, aviation mail security, public health preparedness, and
performance measures.

ONP is responsible for developing Postal Service EP policy and guidance, including the
IEMP templates. ONP’s mission is to maintain a high state of national preparedness
across the Postal Service enterprise through a comprehensive and coordinated
approach to planning, integration, and support.

Integrated Emergency Management Plan. In January 2004, the Postal Service
established the IEMP as the all-hazard, comprehensive plan for the Postal Service to
mitigate, prepare for, respond to, and recover from any natural or man-made disaster.
The IEMP integrates the Emergency Action Plan6 (EAP), the COOP plan, and annexes
for specific hazards into one plan. District and facility managers are required to update
IEMPs at least annually.

Continuity of Operations Plan. The COOP plan is intended to ensure postal facilities
are prepared to:

       •   Continue essential functions in the event of any emergency that disrupts normal
           operations.


5
    United States Postal Service Annual Report 2007.
6
    The EAP provides evacuation-specific tasks and procedures for the facility.



                                                            6
Postal Service Continuity of Operations                                                                    SA-AR-08-010
 for the Pacific Area


    •    Protect essential equipment, vital records (operating, legal, and financial), and
         assets.

    •    Reduce or mitigate disruptions to operations by minimizing the loss of resources
         and by providing timely and orderly recovery from an emergency and the
         resumption of full service.

The COOP plan also assists emergency management team (EMT) members in all
phases of emergency management: mitigation, preparedness, response, and recovery.
The Postal Service has developed COOP plan templates for districts and facilities.
Responsible district and facility personnel should tailor the COOP plan templates to
address site-specific requirements and risks.

Federal Preparedness Circular 65, Federal Executive Branch Continuity of Operations,
June 15, 2004. FPC-65, issued by the Federal Emergency Management Agency
(FEMA), provides guidance to Federal Executive Branch departments and agencies for
developing contingency plans and programs for COOP. FPC 65 establishes COOP
planning as the means by which federal departments, agencies, and their
subcomponents ensure their essential functions are performed. This includes plans and
procedures that delineate essential functions; specify succession to office and the
emergency delegation of authority; provide for the safekeeping of vital records and
databases; identify alternate operating facilities; provide for interoperable
communications; and validate the capability through tests, training, and exercises.7

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Pacific Area has a viable COOP capability
to ensure the performance of its essential functions during any emergency that may
disrupt normal operations.

To accomplish our objective, we interviewed Postal Service and Postal Inspection
Service officials, including ONP officials; facility heads; and area, district, and facility
personnel responsible for COOP to gain an understanding of their roles and
responsibilities related to COOP. We reviewed applicable COOP policies and
procedures and assessed related internal controls.

We conducted audit fieldwork at Postal Service Headquarters and various judgmentally
selected sites in the Pacific Area (see Appendix C for a list of sites reviewed). We
assessed COOP plans for the Pacific Area, districts, and critical facilities8 to determine

7
  In February 2008, the Department of Homeland Security issued Federal Continuity Directive (FCD) 1, Federal
Executive Branch National Continuity Program, and FCD 2, Federal Executive Branch Mission Essential Function
and Primary Mission Essential Function Identification and Submission Process. These directives supersede FPC-65
and establish continuity planning requirements, including continuity plan templates, to assist departments and
agencies in developing internal continuity processes and procedures. FCDs 1 and 2 are applicable to the Postal
Service, and Postal Service management has indicated they will comply with the directives.
8
  Critical facilities are facilities essential for the delivery of vital services. The Postal Inspection Service provided the
OIG with a list of facilities they determined critical to the Postal Service.



                                                              7
Postal Service Continuity of Operations                                    SA-AR-08-010
 for the Pacific Area


whether they addressed Postal Service and federal guidance. In addition, we reviewed
training records from the National Training Database to determine whether key
personnel responsible for COOP completed training provided by the Postal Service and
suggested by FEMA. We also accessed PANS data to determine whether responsible
officials updated and maintained current COOP plans in the system. Although we did
not conduct extensive tests of the accuracy of computer-generated data, we discussed
the training records and PANS data with applicable personnel and compared the data to
other source documents. As a result, we consider the data sufficiently reliable to
support the opinions and conclusions in this report.

We conducted this performance audit from January through July 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on May 9, 2008, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

In the past 3 years, the OIG issued 11 reports regarding Postal Service emergency
preparedness plans. Eight of the 11 audits related to our review of the Postal Service's
response to Hurricanes Katrina and Rita. In these reviews, we found that while the
Postal Service took noteworthy actions in responding to the hurricanes, opportunities
existed to enhance emergency preparedness planning and response. Management
generally agreed with our recommendations. Two of the audits related to our review of
emergency plans in the New York Metro and Western Areas. The reports concluded
that Postal Service emergency plans were not always completed in accordance with
federal and Postal Service guidance and did not fully address risk vulnerabilities. We
made five recommendations to improve the EP program. Management agreed with our
recommendations to revise the IEMP, identify facilities that require an IEMP, and
establish performance measures. Management partially agreed with our
recommendations to establish training requirements for EP personnel and to establish
an area EMCC.

In addition, the U.S. Government Accountability Office (GAO) issued four reports on
federal emergency preparedness planning. Overall, the reports concluded that
emergency planning could be improved by providing more effective oversight and
conducting tests, training, and exercises. GAO made numerous recommendations to
improve emergency planning.




                                           8
Postal Service Continuity of Operations                                    SA-AR-08-010
 for the Pacific Area



                 REPORT TITLE                        REPORT NUMBER     REPORT DATE

                                          OIG Reports
Postal Service Emergency Preparedness Plans
                                                        SA-AR-08-005    March 21, 2008
for the New York Metro Area
Postal Service Emergency Preparedness Plans
                                                        SA-AR-08-006    March 21, 2008
for the Western Area
Postal Service Emergency Preparedness for
                                                        SA-AR-06-007    August 3, 2006
Hurricanes Katrina and Rita
Hurricane Katrina – The Effectiveness of the
Postal Service Transportation and Logistics             NL-AR-06-006    June 29, 2006
Network
Postal Inspection Service Emergency
                                                        SA-AR-06-005     June 5, 2006
Preparedness for Hurricane Katrina
Postal Inspection Service’s Procurement
Transactions Related to Hurricane Katrina               SA-AR-06-004     May 30, 2006
Response, Recovery, and Reconstruction Efforts
Review of Postal Service’s Replacement and
                                                        FA-MA-06-001     May 26, 2006
Repair of Facilities Affected by Hurricane Katrina
National Change of Address – Emergency
                                                        IS-AR-06-005    March 30, 2006
Preparedness
Mail Processing Operations in the Wake of
                                                        NO-MA-06-002    March 27,2006
Hurricanes Katrina and Rita
Postal Service Actions to Safeguard Employees
                                                        HM-AR-06-002   February 15, 2006
from Hurricane Katrina
Postal Inspection Service Emergency
                                                        SA-AR-05-001    January 5, 2005
Preparedness

                                          GAO Reports
The Federal Workplace: Additional Steps
Needed to Take Advantage of Federal Executive
                                                        GAO-07-515        May 2007
Boards’ Ability to Contribute to Emergency
Operations
Catastrophic Disasters: Enhanced Leadership,
Capabilities, and Accountability Controls Will
Improve the Effectiveness of the Nation’s               GAO-06-618     September 2006
Preparedness, Response, and Recovery
System
Continuity of Operations: Selected Agencies
Could Improve Planning for Use of Alternate             GAO-06-713        May 2006
Facilities and Telework during Disruptions
Continuity of Operations: Agency Plans Have
Improved, but Better Oversight Could Assist             GAO-05-577        April 2005
Agencies in Preparing for Emergencies




                                                9
Postal Service Continuity of Operations                                                                SA-AR-08-010
 for the Pacific Area



                                 APPENDIX B: DETAILED ANALYSIS

Completion of Continuity of Operations Plans

Responsible Postal Service officials in the Pacific Area did not always establish and
maintain COOP plans for areas, districts, and facilities9 in accordance with federal and
Postal Service guidance. In addition, personnel with COOP responsibilities did not
always update and maintain all COOP plans in PANS10 to facilitate emergency
preparedness and response activities. For example:

    1. COOP plans were not always completed or updated annually, as required (see
       Appendix D). Specifically:

         •   Three facilities did not have a COOP plan. In addition, the area COOP plan
             and four facility COOP plans were not updated annually.

         •   Fourteen COOP plans reviewed were not updated or maintained in PANS.11

    2. The COOP plans we reviewed did not contain all pertinent information, such as
       essential functions, staffing needs, offload plans, and current contact information.
       Specifically:

         •   Four of the six district COOP plans did not identify essential functions, as
             required. Although responsibilities were identified by some functional areas,
             such as marketing, business service network, and finance, districts did not
             identify those critical activities necessary to continue operations in the event
             of a COOP activation.

         •   None of the 11 facility COOP plans we reviewed identified essential
             functions.12

         •   Six of the 11 facility COOP plans we reviewed did not identify staffing
             needs.13



9
  The audit team requested COOP plans from 21 sites and received 18 COOP plans for review: one area plan, six
district plans, and 11 facility plans. Three facilities did not have a COOP plan.
10
   PANS provides Postal Service EMTs with a mechanism to communicate, coordinate, and collaborate effectively
during times of crisis. It is a web-based application that enables a nationwide staff to create, track, and manage
emergencies through all stages.
11
   In May 2006, the Vice President of Emergency Preparedness issued a memorandum requiring personnel to update
and maintain COOP plans in the Postal Emergency Management System (PEMS). In September 2006, Postal
Service management changed the name of the system from PEMS to PANS. The name change did not affect the
system’s mission and functions.
12
   The facility’s COOP plan template did not require the identification of essential functions.
13
   The staffing that is required at offload locations to support the volume and operations being diverted, as well as the
continuation of other essential operations activities.



                                                           10
Postal Service Continuity of Operations                                                                SA-AR-08-010
 for the Pacific Area


         •    Eight of the 1114 facility COOP plans we reviewed did not have current or
              complete offload plans.

These situations occurred because Postal Service management did not establish
sufficient internal controls and requirements to ensure COOP plans addressed federal
and Postal Service guidance. Specifically, management did not ensure responsible
personnel updated the contact information for key COOP personnel at least annually.15
In addition, management did not establish:

     •   Requirements for mandatory training, including PANS training, for COOP
         personnel to ensure COOP plans were properly completed and maintained.16
         Eight of 22 personnel interviewed stated they did not receive sufficient COOP
         training. In addition, 20 of 22 personnel interviewed did not receive PANS
         training.

     •   An internal review and approval process to ensure COOP plans were properly
         completed, updated annually, and maintained in PANS.

     •   Guidance to identify and prioritize essential functions.17

     •   An EMCC18 at the area level to provide oversight to districts and facilities.

Alternate Facilities

Identification

Responsible Pacific Area personnel did not always identify appropriate alternate
facilities19 to ensure they could effectively continue operations. For example:

     •   Pacific Area officials identified only one alternate facility for the XxxxxxxxXxxx.20
         Identifying only one alternate facility exposes the XxxxxxxxxXxxx to an increased
         risk of not effectively continuing operations if the alternate facility cannot process
         the primary facility’s mail.


14
   Installation offload plans are used to identify offload sites to process mail when the installation is closed and its
COOP plan is activated.
15
   The Postal Service IEMPs for districts and installations require the responsible managers to update COOP plans
annually or whenever circumstances dictate.
16
   FEMA offers several online COOP courses at no charge, including “Continuity of Operations Awareness Course,”
IS-546, and “Introduction to Continuity of Operations,” IS-547. In addition, the Postal Service has provided IEMP-
and other COOP-related training.
17
   FEMA’s FPC-65 states that essential functions should be identified and prioritized.
18
   The ASM requires that EMCCs be established in each area to assist inspectors in charge and district managers in
developing emergency plans.
19
   FPC-65 provides guidance for facilities to identify and prepare alternate operating facilities as part of their COOP
plans. To minimize risk, distance and geographical location should be considered when selecting alternate facilities.
20
   During our audit, XxxxxxxxxXXXX management agreed that additional alternate facilities were needed and should
be identified. In the past 5 years, the XxxxxxxxxXXXX has identified other alternate facilities, including the Xxx
XxxxxxxxxxXXXX and XxxxxXxxxxxXXXX.



                                                           11
Postal Service Continuity of Operations                                                           SA-AR-08-010
 for the Pacific Area


     •   Xxx XxxxxxxxxxXXX officials identified an alternate facility that was closed.

These situations occurred because management did not establish specific guidance for
identifying alternate facilities, such as the number of alternate facilities that should be
identified, and criteria for the location and mail volume or capacity. According to
guidance provided by FEMA in FPC-65, at a minimum, an all-hazard risk assessment
should be performed when selecting alternate operating facilities to ensure COOP.

Testing and Exercises

Pacific Area personnel did not always conduct tests and exercises to ensure alternate
facilities could effectively receive and process the primary facilities’ mail.21 For
example, the Xxx XxxxxxxxxxXXX, XxxxxxxxXXXX, Xxxxxxxx Xx XxxxxxxxXXXX, and
XxxxxxxXxxxxxxxxxxxxxxXxxxxxxxxxxxxXxxxxxxxxXXXXXX did not conduct any
exercises or tests of alternate facilities.

This occurred because management did not establish sufficient requirements for
personnel responsible for COOP at primary and alternate facilities to conduct tests and
exercises to ensure alternate facilities could effectively process the primary facilities’
mail. For example, personnel at alternate facilities did not download sort plans in mail
processing equipment to ensure the equipment could effectively handle mail from
primary facilities.




21
  FPC-65 provides guidance for facilities to plan, conduct, and document annual tests and exercises to demonstrate
their COOP plan’s viability and identify deficiencies.



                                                        12
Postal Service Continuity of Operations                                  SA-AR-08-010
 for the Pacific Area



              APPENDIX C: PACIFIC AREA, DISTRICTS, AND FACILITIES

                             PACIFIC AREA

                                   NAME                      CITY         STATE
    1    Pacific Area Office                               San Diego     California

                               DISTRICTS

                                   NAME                      CITY         STATE
    1    Bay Valley                                      Oakland         California
    2    Honolulu                                        Honolulu        Hawaii
    3    Los Angeles                                     Los Angeles     California
                                                         West
    4    Sacramento                                                      California
                                                         Sacramento
    5    San Diego                                       San Diego       California
    6    Santa Ana                                       Santa Ana       California

                               FACILITIES

                              NAME                           CITY         STATE
    1    Xxxxxxx XXXX                                    Anaheim         California
    2    Xxxxxx XXXX                                     Fresno          California
    3    Xxxxxxxx XXXX                                   Honolulu        Hawaii
    4    Xx Xxxxxxx Xxxxxxxxxxxxx Xxxxxxx Xxxxxx XXXXX   Carson          California
    5    Xxx Xxxxxxx XXXX                                Los Angeles     California
    6    Xxxxxxxx Xx Xxxxxxx XXXX                        San Diego       California
    7    Xxxxxx XXXX                                     San Diego       California
    8    Xxxxxxx XXXX                                    Oakland         California
    9    Xxxxxx XXXX                                     Oxnard          California
   10    Xxxxx Xxxx Xxxxxxx Xxxx                         Sacramento      California
   11    Xxx Xxxxxxxxx XXX                               Richmond        California
   12    Xxx Xxxxxxxxx XXX                               Daly City       California
   13    Xxxxx Xxx XXXX                                  Santa Ana       California
   14    Xxxxxxxx Xxxx Xxxx Xxxxxx                       Thousand Oaks   California




                                            13
Postal Service Continuity of Operations                                                       SA-AR-08-010
 for the Pacific Area



          APPENDIX D: STATUS OF CONTINUITY OF OPERATIONS PLANS

                                            Completed or             Identified           Updated and
                                              Updated                Essential            Maintained in
                 Name                        Annually22              Functions               PANS
1     Pacific Area Office                       No                      Yes                    No

               DISTRICTS

                                            Completed or             Identified           Updated and
                                              Updated                Essential            Maintained in
                   Name                       Annually               Functions               PANS
1     Bay Valley                                Yes                     No                    Yes
2     San Diego                                 Yes                     No                     No
3     Santa Ana                                 Yes                     Yes                   Yes
4     Los Angeles                               Yes                     No                     No
5     Sacramento                                Yes                     Yes                   Yes
6     Honolulu                                  Yes                     No                     No

               FACILITIES

                                            Completed or              Identified          Updated and
                                              Updated                 Essential           Maintained in
                   Name                       Annually                Function               PANS
1     Xxxxxxx XXXX                                Yes                    No                    No
2     Xxxxxx XXXX                                 Yes                    No                    No
3     Xxxxxxxx XXXX                               No23                  N/A24                 N/A
4     Xxx Xxxxxxx XXX                              No                    No                    No
5     Xxx Xxxxxxx XXXX                            Yes                    No                   Yes
6     Xxxxxxxx Xx Xxxxxxx XXXX                    Yes                    No                    No
7     Xxxxxx XXXX                                 Yes                    No                    No




22
   Xxxxxxxx XXXX, Xxxxx Xxxx Xxxxxxx Xxxx, and Xxxxxxxx Xxxx Xxxx Xxxxxx did not have a COOP plan. In
addition, plans for the Pacific Area Office, Xxxxxxx XXXX, Xxxxxx XXXX, Xxx Xxxxxxxxx XXX, and Xxx Xxxxxxx XXX
COOP were not updated annually as required.
23
   Xxxxxxxx XXXX did not have its own COOP plan. However, some of its COOP activities were addressed in the
Xxxxxxxx Xxxxxxxx COOP plan. During our audit, management took corrective actions and established a separate
COOP plan for the Xxxxxxxx Xxxx using the facility COOP plan template.
24
   Not applicable because the plan was not completed.



                                                      14
Postal Service Continuity of Operations                               SA-AR-08-010
 for the Pacific Area



                                                                       Updated
                                          Completed or   Identified       and
                                            Updated      Essential    Maintained
                        Name                Annually     Function      in PANS
8     Xxxxxxx XXXX                            No            No            No
9     Xxxxxx Xxxx                             No            No            No
10    Xxxxx Xxxx Xxxxxxx Xxxx                 No            N/A           N/A
11    Xxx Xxxxxxxxx XXX                       Yes           No            No
12    Xxx Xxxxxxxxx XXX                       No            No            No
13    Xxxxx Xxx XXXX                          Yes           No            No
14    Xxxxxxxx Xxxx Xxxx Xxxxxx               No            N/A           N/A




                                          15
Postal Service Continuity of Operations                     SA-AR-08-010
 for the Pacific Area


                        APPENDIX E: MANAGEMENT’S COMMENTS




                                          16
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          17
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          18
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          19
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          20
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          21
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          22
Postal Service Continuity of Operations        SA-AR-08-010
 for the Pacific Area




                                          23
